CERTIFICATE OF SERVICE
NO. TBD
Jagdish C. Laul
Petitioner(s)
v.
Los Alamos National Laboratories
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JAGDISH
LAUL PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Ellen S. Casey
Hinkle Hensley Shanor
P.O. Box 2068
Santa Fe, NM 87504-2068
(505) 982-4554
ecasey@hinklelawfirm.com
Counsel for Los Alamos Nat. Lab

Lucas DeDeus

August 5, 2019
SCP Tracking: Rabern-644 Don Gaspar Ave.-Cover White

